I*

-*£•

IN THE
SUPREME COURT OF THE UNITED STATES
%

JARVIS O’NEIL ADAMS,
Petitioner,

/

filed

0cr ” ? 2020

V.

OFFICE OF THE GOVERNOR;
OFFICE OF GREENE COUNTY SHERIFF;
OFFICER PAQUETTE, in his personal and official capacity;
OFFICER JOHN DOE, in his personal and official capacity
Respondent.

On Petition for Writ of Certiorari
to the U.S. Court of Appeals for the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI
Jarvis O’Neil Adams
525 Lawrence Circle
Batesburg, SC 29006
Telephone: (803)604-7966
Pro se Plaintiff- Appellant

RECEIVED
OEC 23 *0
RECEIVED
OCT 1 5 2020
SuPR%PEFrTnH,^LF,RT

QUESTIONS PRESENTED FOR REVIEW

1. Whether probable cause pursuant to the 4th Amendment can be
established solely upon an officer's opinion of smelling narcotics.
2. Whether seizure pursuant to the 4th Amendment and arrest are
synonymous or must a citizen be taken to jail and charged with
something for an arrest to occur.
3. Whether confiscating a citizen's personal property during a stop that
does not result in a crime being committed nor the citizen being
charged with anything violates the citizens 4th and 5th Amendment
rights.
4. Whether the immunities and privileges in the cited cases are
applicable in plaintiffs case.

I

B. PARTIES INVOLVED
CERTIFICATE OF INTERESTED PERSONS
Bradley, Stephen A

Greene County District Attorney

Mauldin, Allison T

Greene County District Attorney

Office of Greene County Sherriff

Defendant-Appellee

Office of the Governor

Defendant-Appellee

Officer John Doe

Defendant-Appellee

Officer Paquette

Defendant-Appellee

Peters, William

Counsel for Defendant-Appellee

Prior, William A

Ocmulgee Judicial Circuit Judge

Royal, C Ashley

Senior U.S. District Court Judge

STATE OF GEORGIA

Corporation

Z_.

C. TABLE OF CONTENTS AND CITED AUTHORITIES
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

1

PARTIES INVOLVED

2

TABLE OF CONTENTS AND CITED AUTHORITIES

3

TABLE OF CONTENTS

3

APPENDIX

i

TABLE OF AUTHORITIES

4

CITATION TO OPIONION BELOW

5

BASIS FOR JURISDICTION

5

CONSTITUTIONAL PROVISIONS
AND LEGAL PRINCIPLES INVOLVED

5

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT.

8

CONCLUSION

13

3

TABLE OF AUTHORITIES
Cases
Rodriguez v. United States 575 U.S. 135 S.Ct. 1609.

8,10,11

U.S. v. Mendenhall 446 U.S. 544.

11,12

OFFICER THEIS CASE.

10,11
Statutes

28 U.S.C. 1251

5

28 U.S.C. 1254

5
Others

U.S. Constitution 4th Amendment.

1,5,9,10

U.S. Constitution 5th Amendment,

1,5,9,10

Supreme Court Rule 13(3)

5

Petitioner Jarvis O'Neil Adams requests that the Court
issue its writ of certiorari review the judgment of the
Court of Appeals for the Eleventh Circuit entered on
June 12, 2020. Plaintiffs request for rehearing en banc
was denied on August 11, 2020. Pursuant to Supreme
Court Rule 13 (3) petitioner may request writ of certiorari
within 90 days of the order denying the en banc request

CITATION TO OPINION BELOW
Adams v Office of the Governor et al
BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant to
28 U.S.C. 1251 and 28 U.S.C. 1254
CONSTITUTIONAL PROVISIONS AND
LEGAL PRINCIPLES INVOLVED
The Fourth Amendment to the Constitution prohibits
“unreasonable searches and seizures,” and establishes
that probable cause must be supported by oath or affirmation.

The Due Process Clause of the Fifth Amendment
provides that no person shall be deprived of their
life, liberty, or property without due process of law

5

STATEMENT OF THE CASE
Factual Background
While traveling on Interstate 20, plaintiff was seized by defendant paquette. Petitioner
was not committing a crime prior to being seized nor were there any warrants pending for
petitioner's arrest. Upon stopping petitioner asked the defendant to present him with probable
cause for the stop and the defendant asked petitioner if they could stand in front of the
defendant's dash-cam while he presented the cause for the stop. Upon stepping out petitioner
asked the defendant' why he was being stopped again to which the defendant stated that he failed
to see plaintiff signal. Plaintiffs license, registration, and proof of insurance were all confirmed
valid and no “citations, tickets, etc.” were written nor was plaintiff charged with anything during
the incident. Plaintiff recalls being in possession of his registration and proof of insurance prior
to the search of his person occurring but while petitioner was attempting to return to his vehicle
to leave the defendant was still in possession of plaintiffs drivers license and called out to
plaintiff regarding the license which the defendant had clipped to something on his chest. When
petitioner approached the defendant he grabbed petitioner and conducted a search of his person.
While searching petitioner's person the defendant accused petitioner of having narcotics on his
person and in his vehicle. Petitioner knew that he had not been in possession of any narcotics and
denied the accusations being asserted by the officer. The search of petitioner's person caused
petitioner and the defendant to quarrel about petitioner's constitutional rights. The defendant
admitted that he was aware of plaintiff s 4th and 5th Amendment rights but ultimately told
petitioner that he was going to search petitioner's vehicle anyway because the State of Georgia
allows him to do so. Defendant John Doe arrived on the scene around this time and petitioner
asked John Doe for assistance but John Doe agreed with the defendant about the so-called State
of Georgia law. The defendant commanded officer John Doe to watch petitioner and keep
petitioner in front of the dash cam while he conducted searches of plaintiffs vehicle and

possessions. There was no narcotics in plaintiffs vehicle nor any contraband nor anything that
plaintiff could be charged with, but while the defendant was searching plaintiffs vehicle he
removed plaintiffs federal reserve notes from the car. After searching petitioner's vehicle he told
petitioner that he wanted the federal reserve notes that were in petitioner's pockets as well. The
defendant placed both stacks of federal reserve notes in a bluish looking bag and asked plaintiff
to sign a disclaimer but petitioner would not sign a disclaimer and the officer wrote a receipt for
unknown amount of U.S. Currency. The defendant then continued to harass plaintiff concerning
who plaintiff identified himself as. John Doe held petitioner's license and interrogated petitioner
concerning the things listed on his license such as height, weight, date of birth, etc. Defendant
paquette used took out a cell phone and took pictures of the inside of petitioner's vehicle, a
picture of petitioner, petitioner's license plate, and also used the phone to take a fingerprint of
petitioner's thumb. Paquette also called to the Lexington County Sheriffs department or
detention center or petitioner's local police station and someone released information to him
concerning petitioner.

ft

REASONS FOR GRANTING THE WRIT
1.Whether probable cause pursuant to
the 4th Amendment can be established
solely upon an officer's opinion of
smelling narcotics
2.Whether seizure pursuant to the 4th
Amendment and arrest are synonymous
or must a citizen be taken to jail and charged
with something for an arrest to occur

Plaintiff believes the panel's determination and case law theory which suggests that a
police officer is allowed to conduct warrantless searches of a citizen’s person, vehicle, and
possessions for their safety as long as the stop is based on traffic and the officer says he or she
smells narcotics at some time during the incident, has already been rebutted by U.S. Supreme
Court and federal cases which as they are written suggests that for an officer’s safety the officer
is only allowed to perform certain acts as long as the stop is based on traffic, and those which
suggests that probable cause cannot be established solely upon an officer's opinion of smelling
narcotics. Plaintiff believes in cases such as Rodriguez v U.S. the U.S. Supreme Court also
determined that certain actions performed by an officer would demonstrate that the officer is no
longer conducting a traffic stop. Petitioner believes that common sense would denote that any
citizen who knows he or she is not and has not been in possession of narcotics would not only
deny the accusation but if searched anyway they also would not be found to be in possession of
any narcotics or other contraband. Under those circumstances one would not be able to raise the
opinion of the officer above the speculative level. Petitioner believes that all citizens are innocent
until proven guilty, and if any evidence is presented none will provide proof of the officer's
opinion. The Court of Appeals ruled against petitioner in regards to his unlawful stop claim and
the petitioner's claim for unlawful searches. Plaintiff believes that these determinations were only
taken into consideration solely based upon the way his complaint is worded. Petitioner believes
this caused Judges to make conclusions regarding those matters in a manner inconsistent with

8

how petitioner believes they should be viewed and ruled. The Court of Appeals determined that
“ A warrantless arrest without probable cause violates the 4th Amendment and forms a basis for
1983 claim but there can be no claim for unlawful arrest without an arrest.” The Court also
determined that probable cause is established as long as the officer observes a traffic infraction.
The Court made its determination from plaintiff stating in his complaint that the officer stated
that he seized plaintiff for failing to signal, but this would on imply that the officer stated this and
at most would imply that the officer is basing the stop on traffic. It cannot be concluded that
plaintiff actually failed to signal solely because the officer stated this, and depending on what the
evidence shows concerning the stop, petitioner may be allowed to ask other questions pertaining
to whether the stop was unreasonable pursuant to the 4th Amendment. The appeal court
determined that petitioner did not dispute whether he failed to signal but petitioner does not
know whether he actually failed to signal, this was simply the reason that was given to petitioner.
Petitioner believes that he does not have to dispute this because he was not charged for this nor
anything during the stop. The problem here is that although plaintiff was not charged with
anything, personal property was confiscated from petitioner which was only taken for the sole
purpose of attempting to prove the property as evidence of a crime when in fact no crime
had been committed. Petitioner believes that for any type of criminal purpose one would be
trying to serve the stop would be viewed as and deemed a violation of the citizen's 4th and 5th
Amendment rights. Petitioner believes that depriving the citizen in this manner of their personal
property would also violate the due process clause of the 5th Amendment. Petitioner believes that
due process and Supreme Law of the Land are synonymous but due process and judicial
proceeding are not necessarily synonymous. Plaintiff also believes that in order for a proceeding
to take place to attempt to prove the property as evidence of a crime one would first need a
warrant that authorized the seizure of petitioner and the property. The U.S. Court of Appeals also
determined that as long as the defendant stated that he smelled narcotics at some time during the
stop then probable cause was established to search petitioner's vehicle. The search of plaintiffs

person was chalked up to a “weapons check” by the U.S. Court of Appeals and U.S. District
Court, but petitioner believes that if it were a “weapons check” and petitioner was not in
possession of any weapons then petitioner had a right to leave and the stop was over. Petitioner
believes that this determination is an error and believes that probable cause cannot be established
solely upon an officer's opinion of smelling narcotics. There are already cases involving an
officer's opinion of smelling narcotics which led to searches and those searches were ruled a
violation of the citizen's 4th and 5th Amendment rights for any type of criminal purpose
attempting to be served. There are also cases involving an officer's opinion of smelling narcotics
which led to searches and other harassment and the citizen was awarded damages. Petitioner has
cited two cases in which at some time during the stop the officer stated that he or she smelled
narcotics and would like to petition this court on the issue of whether probable cause pursuant to
the 4th Amendment can be established solely upon an officer's opinion of smelling narcotics. In
Rodriguez v. U.S. “Rodriguez “ was standing outside of the vehicle while all actions pursuant to
the reason for being stopped was performed. This included being presented with the reason for
the stop and having his license, registration, insurance, etc. checked. After the stop was over the
officer thought he or she smelled methamphetamine in “Rodriguez's” vehicle. “Rodriguez” was
asked by the officer did he have any narcotics in his possession or in the vehicle. The officer
asked “Rodriguez” could he or she deploy a dog to sniff around the vehicle to which
. “Rodriguez” but would not consent. The officer deployed the dog anyway and the dog gave a
positive odor for methamphetamine which led to the officer performing warrantless searches.
Those searches led to the officer charging “Rodriguez” with the methamphetamine and any other
contraband that the officer found while searching. The U.S. Supreme Court determined that
police officer could not deploy the dog and the searches were ruled a violation of “Rodriguez's”
4th and 5th Amendment rights for any type of criminal purpose that was attempting to be served.
In a recent case stemming from Des Moines, Iowa involving officer Theis and two young male
occupants, officer theiss can be see on the video telling the young men prior to stepping out of

the vehicle that he not only smells marijuana but he can also see the marijuana on the floor. The
young men stepped out and were handcuffed, separated, and warrantless searches among other
things were also conducted. Petitioner does not recall whether the young men were charged with
anything or had any property taken from them, but the incident did result in a settlement for the
young men. Even in cases like U.S. Champion, a case where searches were upheld, the U.S.
Appeal Court ruled that probable cause cannot be established solely upon the officer's opinion of
smelling narcotics. Petitioner believes that when officer's base searches on their opinion of
smelling narcotics they are actually basing the search off a hunch that they will find something. It
cannot be concluded that the officer actually smelled marijuana and based on the way the
incident is described by plaintiff there is no way for the officer to smell anything inside of
plaintiff’s car because he and plaintiff are standing outside several feet away from the car in front
of the officer’s dash cam when the accusation occurs. There also was no way for John Doe to
smell anything in plaintiffs vehicle as he never approached plaintiffs vehicle he simply agreed
with officer Paquette about the so called state law and was being commanded by officer Paquette
to perform certain actions all while plaintiff was being compelled. Plaintiff believes that he
properly disputed this by not only denying the accusations when they occurred but also by
asserting his rights, having the officer admit to knowing plaintiff’s rights, having the officer
admit that he was going to search plaintiff’s car anyway, and not being found to be in possession
of any narcotics or other contraband. Plaintiff believes that the Supreme Court has also
determined that certain actions performed by an officer during the stop would demonstrate that
the officer is no longer performing a traffic stop and instead is performing actions more
consistent with conducting a criminal investigation. According to the standards set in cases like
Rodriguez v. U.S. and U.S. v Mendenhall these actions may include but are not limited to
warrantless searches of the citizen’s person, vehicle, and possession etc. Plaintiff believes that
his right to leave was being infringed upon solely on a hunch and the actions being performed
while his right to leave was being infringed on demonstrate that the officer is was conducting a

Il

criminal investigation, and based on the standard set forth in U.S. v Mendenhall this test must be
viewed under the totality of the circumstances.
3.Whether confiscating a
citizen's personal property
during a stop that does not
result in a crime being
committed nor the citizen
being charged with anything
violates the citizen's 4th and
5th Amendment rights
The U.S. District court did not rule on whether the seizing of plaintiffs property violated
plaintiffs constitutional rights and petitioner's complaint was remanded back to the district court
for order on the matter. The U.S. Court of Appeals determined that despite the quantity of
plaintiffs property, the property cannot be used to establish probable cause that the property is
related to some type of drug transaction. The U.S. Court of Appeals also determined that the
government can establish probable cause for the seizure of property by showing that the property
was related to some illegal drug transaction and also determined that the officer may seize the
property pursuant to the 4th Amendment as long as the officer had probable cause to believe the
evidence was contraband. Plaintiff believes that since he was not charged with anything during
the stop the officer would not be allowed to confiscate any of plaintiffs personal property
because the property itself is not contraband and the sole purpose for doing so was to attempt to
prove the property as evidence of a crime. No crime was committed during the stop, and the only
thing confiscated during the stop was plaintiffs personal property.

\X

CONCLUSION
Petitioner respectfully requests that the Court grant the
writ of certiorari.

DATED: October 7, 2020.

da

d? -

------------- -

arvis O’Neil Adams (natural person)

13

CERTIFICATE OF SERVICE
I hereby certify that on October 7, 2020 I filed the foregoing with the Clerk
of the Court for the United States Supreme Court via U.S. Certified Mail.

arvis O’Neil Adams (natural person)

\A

